U.S. Department of the Interior
Office of Inspector General

                                  Audit Report

                 Administrative Functions
         Virgin Islands Police Department
         Government of the Virgin Islands




                            Report No. 2002-I-0010
                                    February 2002
                                                                                   V-IN-VIS-005-01-M



                 United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL

                                           Caribbean Region
                                       Federal Building, Room 207
                                    St. Thomas, Virgin Islands 00802




                                                                                  February 13, 2002

Honorable Charles W. Turnbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Subject: Audit Report "Administrative Functions, Virgin Islands Police Department, Government
         of the Virgin Islands" (No. 2002-I-0010)

Dear Governor Turnbull:

        This report presents the results of our audit of the administrative functions of the Virgin
Islands Police Department.

       Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the U.S. Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.

       Please provide a response to this report by March 29, 2002. The response should provide the
information requested in Appendix 5 and should be addressed to our Caribbean Regional Office,
Federal Building - Room 207, Charlotte Amalie, Virgin Islands 00802.

                                              Sincerely,


                                              Arnold E. van Beverhoudt, Jr.
                                              Audit Manager, Caribbean Region


cc:   Commissioner, Virgin Islands Police Department
EXECUTIVE SUMMARY
                   The Virgin Islands Police Department is responsible for
BACKGROUND         exercising general control over the enforcement of laws relating
                   to public safety; protecting life and property; ensuring a safe,
                   secure environment for the citizens of the Virgin Islands; and
                   administering the licensing of drivers and registration of motor
                   vehicles. The Narcotic Strike Force is responsible for enforcing
                   all drug and narcotic laws applicable to the Virgin Islands;
                   investigating reports of alleged drug trafficking in the Virgin
                   Islands and its territorial waters; and cooperating with Federal,
                   local, and regional government entities engaged in the
                   enforcement of drug and narcotic laws. The Virgin Islands Law
                   Enforcement Planning Commission is responsible for advising
                   and assisting the Governor in developing policies, plans,
                   programs, and budgets for improving the effectiveness of the
                   criminal justice system in the Virgin Islands; monitoring
                   programs aimed at reducing crime and delinquency; rendering
                   technical assistance to Government and private agencies relative
                   to the criminal justice system; and administering appropriations
                   and grants for law enforcement purposes.


                   The original objective of the audit was to determine whether the
OBJECTIVE          Police Department (1) effectively carried out its administrative
                   functions of personnel management, procurement, and property
                   management and (2) used Federal funds in accordance with
                   applicable laws and regulations. At the request of the
                   Commissioner of Police, we expanded the audit objective to
                   determine whether (1) the Narcotics Strike Force had an
                   adequate system of internal controls and used available funds for
                   intended purposes and (2) the Law Enforcement Planning
                   Commission adequately controlled Federal grant funds
                   distributed to Government and nonprofit agencies and complied
                   with applicable legal requirements.


                   We did not identify material weaknesses related to personnel
RESULTS IN BRIEF   management or procurement at the Police Department.
                   However, internal control weaknesses were identified in the
                   areas of property management and grant management at the
                   Police Department, management of confidential funds at the
                   Narcotics Strike Force, and grant management at the Law
                   Enforcement Planning Commission. Specifically, we found that:
                   “    The Police Department did not have adequate controls over
                        police firearms, 68 of which were not accounted for, and
                        evidentiary property.

                   “    The Police Department did not have adequate control over
                        Federal grants and therefore did not (1) submit all required
                        quarterly financial reports for Federal grants received, (2)
                        effectively use grant funds of about $54,500 due to inadequate
                        planning, and (3) have documentation to support grant
                        drawdowns totaling $240,514.

                   “    The Narcotics Strike Force used at least $206,854 from a
                        confidential account established for undercover operations for
                        purposes that were of questionable relationship to undercover
                        work, and a reduction of $35,471 from the Strike Force’s
                        Forfeiture Fund was not adequately documented by the
                        Department of Finance.

                   “    The Law Enforcement Planning Commission did not
                        adequately manage Federal grants received for various law
                        enforcement purposes because it did not (1) expend all grant
                        funds received, (2) submit required progress and financial
                        reports, and (3) effectively monitor compliance with grant
                        requirements by subgrantees or evaluate the success of
                        programs carried out by subgrantees.


                   We made 18 recommendations to the Governor of the Virgin Islands
RECOMMENDATIONS    to address deficiencies related to the control of firearms and
                   evidentiary property by the Police Department, the management of
                   Federal grants by the Police Department and the Law Enforcement
                   Planning Commission, and the management of confidential funds by
                   the Narcotics Strike Force.


                   In the response to the draft report, the Commissioner of Police
AUDITEE COMMENTS   concurred with all 18 recommendations and detailed the corrective
AND OFFICE OF      actions that would be taken. However, the response did not provide
INSPECTOR          target dates for completing the proposed corrective actions.
GENERAL            Therefore, based on the response, we consider 1 recommendation
EVALUATION         resolved and implemented and requested additional information for
                   17 recommendations.



                                 2
CONTENTS
EXECUTIVE          ...............................................                                               1
SUMMARY


INTRODUCTION       Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            5
                   Objective and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 6
                   Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  7



RESULTS OF AUDIT   Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                   Property Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                   Federal Grant Management . . . . . . . . . . . . . . . . . . . . . . . . 13
                   Narcotics Strike Force Operations . . . . . . . . . . . . . . . . . . . 15
                   Law Enforcement Planning Commission Operations . . . . 18



RECOMMENDATIONS    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22



APPENDICES         1. Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              26
                   2. Unaccounted Firearms . . . . . . . . . . . . . . . . . . . . . . . . . .                 27
                   3. Prior Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . .              28
                   4. Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . .                 29
                   5. Status of Recommendations . . . . . . . . . . . . . . . . . . . . . .                    39




                                       3
4
INTRODUCTION
               The Virgin Islands Police Department was established in accordance
BACKGROUND     with Title 3, Chapter 15, of the Virgin Islands Code to: exercise
               general control over the enforcement of laws relating to public safety;
               protect life and property; ensure a safe, secure environment for the
               citizens of the Virgin Islands; and administer the licensing of drivers
               and registration of motor vehicles. Executive Order No. 312-1989
               restructured the Department into eight units: the Office of the
               Commissioner, the Police Divisions of St. Thomas/St. John and
               St. Croix, the Training Division, the Administrative Services Division,
               the Office of Highway Safety, and the Motor Pool Divisions of
               St. Thomas/St. John and St. Croix. The Commissioner of Police,
               who heads the Department, also serves as the Territory’s Drug
               Policy Advisor. The Territorial Police Chief has the overall
               responsibility for and authority over all activities of the Police
               Division. As of March 2001, the Department had 461 police
               officers, 197 civilian employees, and 32 vacant budgeted positions.
               The Department received General Fund appropriations of $28.7
               million in fiscal year 1999 and $27.9 million in fiscal year 2000. The
               Department also received Federal grants of $3.2 million in fiscal year
               1999 and $1.9 million in fiscal year 2000.

               Act No. 6306, dated November 22, 1999, placed the Narcotics
               Strike Force under the Virgin Islands Police Department for
               budgetary purposes. The Strike Force is responsible for enforcing
               all drug and narcotic laws applicable to the Virgin Islands;
               investigating reports of alleged drug trafficking or the distribution and
               sale of narcotics and related paraphernalia in the Virgin Islands and
               its territorial waters; and consulting, conferring, and cooperating with
               Federal, local, and regional government entities engaged in the
               enforcement of drug and narcotic laws. The Strike Force had
               10 employees and 2 budgeted vacancies, and received General Fund
               appropriations of $680,672 in fiscal year 1999 and $689,665 in
               fiscal year 2000. Residual funds from the Strike Force’s General
               Fund account were transferred annually to a special checking
               account to be used for confidential purposes, such as undercover
               operations. Additionally, funds from the forfeiture of seized property
               were deposited to an account administered by the Department of
               Finance for the purchase of law enforcement equipment.




                              5
                 The Virgin Islands Law Enforcement Planning Commission is
                 responsible for advising and assisting the Governor in developing
                 policies, plans, programs, and budgets for improving the
                 coordination, administration, and effectiveness of the criminal justice
                 system in the Virgin Islands; monitoring and evaluating programs and
                 projects aimed at reducing crime and delinquency; rendering
                 technical assistance to Government and private agencies relative to
                 the criminal justice system; and applying for, receiving, and
                 expending, for law enforcement purposes, appropriations or grants
                 from the Virgin Islands Government, the Federal Government, or any
                 other sources. The Commission had 10 employees and had
                 operating budgets of $469,842 in fiscal year 1999 and $499,594 in
                 fiscal year 2000. During the period of June 1995 to October 1999,
                 the Law Enforcement Planning Commission received 33 grants
                 totaling $17 million. Grants totaling $15 million were subgranted to
                 Governmental and nonprofit agencies.


                 The original objective of the audit was to determine whether the
OBJECTIVES AND   Police Department (1) effectively carried out its administrative
SCOPE            functions of personnel management, procurement, and property
                 management and (2) used Federal funds in accordance with
                 applicable laws and regulations. At the request of the Commissioner
                 of Police, we expanded the audit objective to determine whether (1)
                 the Narcotics Strike Force had an adequate system of internal
                 controls and used available funds for intended purposes and (2) the
                 Law Enforcement Planning Commission adequately controlled
                 Federal grant funds distributed to Government and nonprofit agencies
                 and complied with applicable legal requirements.

                 To accomplish the audit objective, we reviewed records at the Police
                 Department related to internal procedures, training, control of
                 firearms and evidentiary property, payroll, and grant management;
                 at the Narcotics Strike Force related to the management of General
                 Fund accounts, confidential funds, and the Forfeiture Fund; and at
                 the Law Enforcement Planning Commission related to the
                 management of Federal grant funds. The audit was conducted from
                 December 2000 through July 2001 at the offices of the Police
                 Department, the Narcotics Strike Force, the Law Enforcement
                 Planning Commission, the Department of Finance, and Federal
                 Bureau of Investigations on St. Thomas.




                                6
              Our audit was conducted in accordance with the "Government
              Auditing Standards," issued by the Comptroller General of the United
              States. Accordingly, we included such tests of records and other
              auditing procedures that were considered necessary under the
              circumstances. The "Standards" require that we obtain sufficient,
              competent, and relevant evidence to afford a reasonable basis for our
              findings and conclusions.

              As part of our audit, we evaluated the internal controls at the Police
              Department, the Narcotics Strike Force, and the Law Enforcement
              Planning Commission to the extent we considered necessary to
              accomplish the audit objectives. We did not identify any material
              weaknesses related to personnel management or procurement at the
              Police Department. However, internal control weaknesses were
              identified in the areas of property management and grant management
              at the Police Department, management of confidential funds at the
              Narcotics Strike Force, and grant management at the Law
              Enforcement Planning Commission. These weaknesses are
              discussed in the Results of Audit section of this report. The
              recommendations, if implemented, should improve the internal
              controls in these areas.


              The Office of Inspector General has not issued any audit reports on
PRIOR AUDIT   the Police Department, the Narcotics Strike Force, or the Law
COVERAGE      Enforcement Planning Commission during the past 5 years.
              However, in January 1994, the Office of Inspector General issued
              two audit reports related to the operations of the Police Department
              (see Appendix 3).




                            7
RESULTS OF AUDIT
             We did not identify material weaknesses related to personnel
OVERVIEW     management or procurement at the Police Department.
             However, internal control weaknesses were identified in the
             areas of property management and grant management at the
             Police Department, management of confidential funds at the
             Narcotics Strike Force, and grant management at the Law
             Enforcement Planning Commission. Specifically, we found that:

             “    The Police Department did not have adequate controls over
                  police firearms, 68 of which were not accounted for, and
                  evidentiary property.

             “    The Police Department did not have adequate control over
                  Federal grants and therefore did not (1) submit all required
                  quarterly financial reports for Federal grants received, (2)
                  effectively use grant funds of about $54,500 due to
                  inadequate planning, and (3) have documentation to
                  support grant drawdowns totaling $240,514.

             “    The Narcotics Strike Force used at least $206,854 from a
                  confidential account established for undercover operations
                  for purposes that were of questionable relationship to
                  undercover work, and a reduction of $35,471 from the
                  Strike Force’s Forfeiture Fund was not adequately
                  documented by the Department of Finance.

             “    The Law Enforcement Planning Commission did not
                  adequately manage Federal grants received for various law
                  enforcement purposes because it did not (1) expend all
                  grant funds received, (2) submit required progress and
                  financial reports, and (3) effectively monitor compliance
                  with grant requirements by subgrantees or evaluate the
                  success of programs carried out by subgrantees.


             The Police Department was responsible for controlling and
PROPERTY     securing Government-owned items issued to police officers and
MANAGEMENT   evidentiary property confiscated from individuals involved in
             criminal activities. We found that the controls over such items
             were inadequate. As a result, (1) police officers did not return
             34 police firearms and 22 uniforms and/or accessories (such as


                          8
                           police badges and handcuffs) when they retired or resigned from
                           the police service, (2) 33 additional police firearms could not be
                           accounted for, and (3) another police firearm issued for the use
                           of a former Governor was not returned to the Police Department.
                           Four of the 33 firearms that could not be accounted for were later
                           recovered when they were used by third parties in the
                           commission of crimes. We also found that, on St. Thomas, 19 of
                           55 items of evidentiary property tested, including 14 weapons,
                           could not be located.


68 Police Firearms and     The Police Department issued to each police officer uniforms,
Other Police Accessories   uniform accessories (such as a police badge and handcuffs), and
Were Not Accounted For     a firearm. The Inventory Control Officer at each police district
                           was to maintain a record of the non-firearm items issued to and
                           returned by each officer. The Department’s training academy
                           was responsible for the issuance of the service firearms, and each
                           firearm was to be returned to that unit upon the retirement or
                           resignation of each officer. Section 5.9.3 of the Police Manual
                           lists the specific items that should be returned to the Department
                           following temporary or permanent separation, and Section 5.9.1
                           states that departmental personnel are responsible for the
                           safeguarding and proper operation of property issued to or placed
                           in their custody. We found that police personnel did not always
                           comply with these requirements.

                           In the St. Croix district, police officers on temporary separation
                           from the Department turned their weapons in to the property
                           clerk instead of to the training academy. Information on the
                           status of the weapons was not communicated to the training
                           academy until the firearms were turned over from the property
                           clerk up to several years later. During our review, we found that
                           22 police firearms were being held in the property room and that
                           the responsible official was not aware that these weapons were
                           being held there. Weapons maintained in the training academy’s
                           armory room on St. Croix also were not adequately controlled.
                           For example, firearms and ammunition were not secured in
                           lockers, but were stored on open shelves on one side of the
                           room, with privately-owned weapons held by the Department
                           being stored on open shelves on the other side of the room. The
                           key to the room was kept in a desk drawer. Further, neither the
                           St. Thomas nor St. Croix district maintained complete
                           inventories of the firearms. At the time of our review, the
                           responsible official tried to update the firearms inventory by


                                         9
                           requesting that each division or unit head provide a list of
                           firearms assigned to personnel of each unit. As a result of the
                           poor controls, we identified at least 68 police firearms
                           (Appendix 2) that were unaccounted for, as follows:

                                 - A total of 34 firearms (3 on St. Thomas and 31 on
                           St. Croix) were not returned to the Department by police officers
                           who had retired or resigned. Similarly, 22 officers (11 on
                           St. Thomas and 11 on St. Croix) did not return other
                           departmental property, such as uniforms, badges, and handcuffs.

                                 - On St. Thomas, 19 other police firearms were
                           unaccounted for. These weapons had been used by the officers
                           in the line of duty. However, they were not returned to the
                           armory, and training academy personnel did not know where the
                           weapons were.

                                 - Also on St. Thomas, six firearms were reported lost and
                           eight firearms were reported stolen by police officers. Of these
                           14 weapons, four were later recovered by the forensics unit after
                           they had been used by third parties in the commission of crimes.

                                 - Lastly, training personnel on St. Thomas had issued a
                           firearm to a police officer for transfer to a former Governor.
                           This firearm was never returned to the armory.

                           The Department should conduct a complete physical inventory
                           of all police firearms, establish complete and accurate property
                           records for the firearms based on the physical inventory,
                           implement and strictly enforce property control procedures to
                           control the movement of firearms among Department personnel,
                           and ensure that firearms that are not assigned to specific
                           personnel are maintained under tight physical security.
                           Additionally, all Departmental personnel should be held strictly
                           accountable for the disposition of firearms assigned to them.


Evidentiary Property Was   The Police Department routinely obtained evidentiary property,
Also Not Properly          including firearms, knives, household items, clothing, money,
Controlled                 and drugs, confiscated from individuals arrested for involvement
                           in criminal activities. Although Section 6.1 of the Police Manual
                           states that all evidentiary property should be carefully collected,
                           preserved, and protected, this was not always being done. Clerks
                           assigned to the property rooms in the St. Thomas and St. Croix


                                        10
districts did not maintain complete and accurate inventories of
property in their custody. Similarly, the forensics unit did not
have complete records of weapons collected and tested.

Although each district had its own property room for the security
of evidentiary property, there was little uniformity in the
operations of both property rooms. For example, the St. Croix
district had a property clerk and an alternate who worked a total
of 16 consecutive hours daily. In contrast, in the St. Thomas
district the property clerk and alternate both worked the same
8-hour shift. Additionally, in the St. Croix district, the clerks
performed all duties related to the disposal of property, while in
the St. Thomas district, property was not being disposed of once
its need for evidentiary purposes had been fulfilled.

We also found that the property room in the St. Thomas district
was in very poor condition. It was located in an abandoned
building that formerly served as the main police station in the
downtown area. The property room was very overcrowded, with
items stacked on the floor, in the hallways, and on the property
clerk’s desk. The overcrowded condition was the result of
evidentiary property not having been disposed of for several
years. Although a new facility for the storage of evidentiary
property was included in the refurbished Alexander Farrelly
Criminal Justice Center, as of June 30, 2001, the property
storage space was not ready for occupancy. One section of the
room was fitted with open cubicles for smaller items, but another
room still had to be set up for the storage of firearms. In
June 2001, the Police Department sent an Invitation for Bids to
the Department of Property and Procurement for acquisition of
construction services to complete the storage area.

Because working lockers were not available in the St. Thomas
district for the security of items during hours when the property
room was closed, police officers who collected evidentiary
property after 4:00 p.m. held such property, sometimes for a
period of up to 8 months, before turning it over to the property
clerk. For example, a police officer arrested a suspect on
October 13, 2000 but held property belonging to the suspect in
a desk until June 26, 2001, when it was finally transferred to the
custody of the property clerk. This was a direct violation of
Section 6.2.4 of the Police Manual, which states that under no
circumstances will property be personally kept by an employee
beyond his tour of duty.


             11
We further found that custody records for evidentiary property
were not always properly maintained. According to established
procedures, each item delivered to the property room should be
documented by a Record of Property Received form. In the
St. Croix district, the prenumbered forms were issued in
numerical sequence and used by the property clerk to list the
items in a log book. Activities involving the items (such as
transferring an item to the forensics unit and later back to the
property room) were listed on the form and in the log book.
However, the property clerk did not maintain a complete
inventory of all evidentiary items held in the property room, as
was required by Section 6.2.5.7b of the Police Manual. In the
St. Thomas district, the Record of Property Received forms were
issued to other units. For example, the Forensics Unit used the
prenumbered forms to assign a receipt number to weapons
collected and processed. But some of these items with property
record numbers were never transferred to the custody of the
property room. Additionally, the responsible official in the
St. Thomas district only had a partial, inaccurate inventory list
of evidentiary items in the property room.

To test the accountability for evidentiary property, we reviewed
a sample of 92 items, 37 on St. Croix and 55 on St. Thomas. All
items in the St. Croix district were located and accounted for.
But in the St. Thomas district, 19 items, including 14 firearms,
were not found.

The Forensics Unit also did not have adequate control over
evidentiary property, particularly firearms, in its custody. The
Forensics Unit used log books to list all weapons tested and
evidence sent to the Federal Bureau of Investigation Crime Lab.
However, information in the logs was not standardized and
varied depending on the officer who recorded the information.
Although each entry was listed with a numeric ballistic number,
there was no system in place to compile an inventory, locate a
specific firearm, or determine the status of a case.

During March 2001, procedures were compiled by the Police
Department for the control and disposal of evidentiary property,
police firearms, and firearms left with the Department by citizens
for safe-keeping. However, funding was not budgeted for the
implementation of these procedures.




             12
                               At the October 2, 2001 exit conference on the preliminary draft
                               of this report, the Police Commissioner stated that work had
                               begun to inventory the property stored at the property room on
                               St. Thomas and to complete renovations to the proposed
                               property room at the Alexander Farrelly Justice Complex so that
                               the evidentiary property could be moved to the Complex.


                               During the period of June 1996 to September 2001, the Police
FEDERAL GRANT                  Department received 24 grants totaling $4.9 million from U.S.
MANAGEMENT                     Department of Justice as a subgrantee of the Law Enforcement
                               Planning Commission. Additionally, the Police Department
                               directly received 15 grants totaling $10.7 million from the U.S.
                               Department of Justice, 2 grants totaling $2.3 million from the
                               U.S. Department of the Interior, and 2 grants totaling $40,000
                               from the U.S. Department of Health and Human Services. Our
                               review disclosed that the Police Department did not submit all
                               of the required quarterly financial reports and did not effectively
                               use about $54,500 due to inadequate planning. Additionally, the
                               Department of Finance did not always record grant drawdowns
                               in the Government’s financial management system, and the
                               Police Department did not have documentation to support
                               drawdowns totaling $240,514.


Required Financial Reports Each grant received by the Police Department was assigned to a
Were Not Always Timely     program director based on the purpose of the grant. Each
or Accurate                program director was responsible for managing the grant
                           program, identifying program needs, and preparing required
                           progress reports. The Department’s accounting division was
                           responsible for preparing required quarterly financial reports.

                               The Department’s Director of Administrative and Support
                               Services prepared for the Commissioner of Police internal
                               monthly reports on grant activity. To determine whether Federal
                               grant reporting requirements were being met, we reviewed the
                               financial and progress reports, through September 2000, for
                               16 of the 38 grants listed in the internal monthly reports. We
                               found that quarterly financial reports were not submitted for five
                               grants and, therefore, the grant account balances could not be
                               determined for these five grants. This problem occurred because
                               untrained accounting personnel in the St. Thomas district
                               believed that the program directors were required to prepare the
                               financial reports. As a result, for subgrants received through the


                                            13
                            Law Enforcement Planning Commission, Commission personnel
                            prepared the required reports using expenditure information
                            contained in the Government’s financial management system.

                            We also found that a total of 22 required quarterly reports were
                            not prepared for the Department of Interior Crime Prevention
                            and Control Initiative Grant, which was awarded to the
                            Department in March 1995. Additionally, three of four quarterly
                            reports reviewed for the Department of Interior Hazard
                            Mitigation Grant were incorrect. For example, the cumulative
                            balance shown on the quarterly report for the period ended
                            March 31, 1999 was not included in the report for the period
                            ended June 30, 1999. Further, for this grant, the internal
                            monthly report for February 2001 showed an available balance
                            of $0, although the correct grant balance should have been
                            $339,493.


Grant Funds of $54,500      A grant of $200,000 was awarded to the Department in
Were Not Used Effectively   September 2000 for the purchase of bullet proof vests for police
                            officers. On September 30, 2000, 500 vests were ordered at a
                            total cost of $199,750. However, correct measurements for the
                            female officers had not been provided to the vendor, and some
                            of the vests for the male officers were also of the wrong size. As
                            a result, 200 vests were unusable. However, the vendor accepted
                            the return of only 96 vests of the 200 vests and at a restocking
                            cost of 25 per cent of the original purchase price. The remaining
                            104 vests were given to other law enforcement agencies. As a
                            result of poor planning, the Department did not effectively use
                            $54,500 of the $200,000 grant.


Grant Drawdowns Were        Drawdowns of grant funds were made through electronic fund
Not Properly Recorded       transfers from the grantor to the appropriate bank account.
                            However, in order for the amount of the drawdowns to be
                            recorded in the appropriate account in the Government’s
                            financial management system, personnel at the Department of
                            Finance had to prepare Statements of Remittance to initiate the
                            postings to the financial management system. We found that
                            Statements of Remittance had not been prepared and processed
                            by the Department of Finance for 24 drawdowns totaling
                            $1.9 million that were made by the Police Department during
                            fiscal years 1999 and 2000. In addition, we could not find
                            documentation at the Police Department to support 6 other


                                         14
                         drawdowns totaling $240,514 that were made during fiscal years
                         1999 and 2000.


                         During the period of February 1995 to June 2000, a total of
NARCOTICS STRIKE         $572,000 was deposited into a special bank account for
FORCE OPERATIONS         confidential and undercover operations of the Narcotics Strike
                         Force. We found that at least $206,854 was expended from that
                         account for purposes that were of questionable relationship to
                         undercover operations. Specifically, (1) $149,790 was used by
                         a former Strike Force official and by a former Director of the
                         agency for the rental of residential properties on all three islands;
                         (2) $27,209 was used by top agency officials for communication
                         services; (3) $2,165 was used to pay for vehicle repairs, of which
                         $1,500 should have been reimbursed by an agency employee; (4)
                         $10,900 was paid to a former Strike Force official for
                         undocumented expenses; (5) $11,790 was used by the same
                         former Strike Force official to pay two personal associates for
                         undocumented services; and (6) $5,000 was paid as a loan to the
                         Police Department, of which $350 was still owed. In addition,
                         a reduction of $35,471 from the Strike Force’s Forfeiture Fund
                         was not adequately documented by the Department of Finance.
                         Further, the Strike Force took no action to recover $22,000 for
                         an official vehicle that was destroyed in an accident with a
                         vehicle driven by a intoxicated, off-duty police officer


Confidential Funds       At least $206,854 was expended from the Narcotic Strike
Totaling $206,854 Were   Force’s confidential account for purposes that may not have been
Used for Questionable    related to undercover operations, as follows:
Purposes
                               - $81,584 was paid for the rental of residential property
                         on St. Thomas during the periods of May 1995 to July 1996,
                         August 1996 to July 1997, and May 1998 to April 1999. This
                         included two 1-year leases for rental property at a monthly rental
                         cost of $2,000. Although these rentals were officially classified
                         as being for undercover operations, we were told by a Strike
                         Force official that the properties were used as the residences of
                         former Drug Policy Advisors.

                              - $58,206 was paid for the rental of residential property
                         on St. Croix during periods prior to June 1995 and from
                         December 1995 to December 1998. In one case, a 6-month lease
                         was negotiated by a former Strike Force official at a monthly


                                       15
rental cost of $950 plus utilities. A notation in the confidential
account’s checkbook listed a $2,400 rental payment as being for
"VIPD witness - security," which may not have been a Strike
Force matter.

      - $10,000 was paid for the rental of residential property
on St. John from the relative of a police official during the period
of December 1995 to July 1996. Although these rentals were
officially classified as being for undercover operations, Strike
Force personnel told us that the residence was used as a
"vacation home" for agency officials.


      - $27,209 was used for communication services,
although such costs were not designated as approved uses in the
written procedures for the confidential account.              The
communication costs included regular telephone, cellular phone,
beeper, and internet service, as well as the purchase of phones
and beepers. We found, for example, that seven Strike Force
officials had a total of 10 cellular phones among them, with three
persons each having two cellular phones.

      - $2,165 was used for repairs to two vehicles. On
February 16, 1996, $465 was paid to an individual for repair to
one car. In July 1995, payments of $1,500 (on July 13) and $200
(July 28) were made to a body shop for repairs to another car
damaged by a Strike Force official. A notation in the
confidential account checkbook stated that the Strike Force
official was to reimburse the account for the $1,700. However,
he only repaid $200, leaving a balance of $1,500 still due.
Vehicle repairs were not authorized uses of the confidential
account.

      - $22,690 was paid to a Strike Force official and two
associates for undocumented purposes. During the period of
December 22, 1999 to March 17, 2000, the Strike Force official
received $5,100 in cash and $5,800 in checks from the
confidential account. The account’s checkbook listed the cash
payments as "expense money," with no other explanation. The
former Strike Force official was not trained to perform
undercover work and there were no documented reports to justify
the payment of these funds. In addition, during the period of
April to July 2000, the Strike Force official paid a total of
$11,790 to two individuals, one being a relative, for undercover


             16
                          work. These individuals did not follow the established
                          procedures for informants, were not government employees, and
                          were not trained for undercover work. However, they received
                          Government funds from the confidential account and were
                          allowed to operate Government-owned vehicles during and after
                          office hours. We found no documentation as to what services
                          they might have provided to the Strike Force.

                               - A loan of $5,000 from the confidential account was
                          given to the Police Department on June 15, 1994. We found that
                          a credit of $4,650 was posted to the account’s checkbook on
                          November 6, 1995, and the entry carried the notation
                          "reimbursement from VIPD." We were unable to determine the
                          purpose of the loan or whether the remaining $350 was repaid.


$35,471 from the          The Forfeiture Fund, which was administered by the Department
Forfeiture Fund Was Not   of Finance had a negative balance of $8,565 as of
Accounted For             September 2000. Financial records from the Department of
                          Finance revealed that in fiscal year 1996, $33,353 was credited
                          to the Fund, but in fiscal year 1997, $35,471 was deducted from
                          the Fund as a budget adjustment. Narcotics Strike Force
                          officials said that these funds were not used by the agency. We
                          could not locate source documents at the Department of Finance
                          to explain the reason for the $35,471 budget adjustment.


A $22,000 Strike Force    On August 20, 1999, the Narcotics Strike Force received five
Vehicle Was Destroyed     new vehicles (Chevrolet Blazers) purchased with funds from the
                          1998 Law Enforcement Block Grant. About 3 1/2 months later,
                          on December 4, 1999, one of the vehicles, driven by a Narcotics
                          Strike Force agent, was involved in an accident. The police
                          report on the accident stated that the other vehicle was being
                          driven by an off-duty police officer who was intoxicated and
                          traveled into the wrong side of the road, causing the accident.
                          The $22,000 vehicle was a total loss, but no action for restitution
                          was taken against the negligent police officer. The damaged
                          vehicle was not replaced, and was being cannibalized for parts
                          for other Strike Force and police vehicles.




                                       17
                         During fiscal years 1995 to 2001, the Law Enforcement Planning
LAW ENFORCEMENT          Commission received 33 grants totaling $17 million from the
PLANNING                 U.S. Department of Justice. The purpose of the grants was to
COMMISSION               assist the territory in programs related to juvenile justice and
OPERATIONS               delinquency prevention, violence against women, victims of
                         crime, crime prevention, justice assistance, and crime act
                         corrections. However, we found that the Commission did not
                         adequately manage these grants. Specifically, the Commission
                         did not (1) effectively expend all grant funds received, (2)
                         submit required progress and financial reports, and (3)
                         effectively monitor compliance with grant requirements by
                         subgrantees or evaluate the success of programs carried out by
                         subgrantees. In addition, the Commission did not maximize
                         interest earned on a law enforcement block grant and the
                         Commission did not have a supervisory board or career
                         employees.


Grant Funds of About     Grants to the Law Enforcement Planning Commission were
$2.33 Million Were Not   awarded for a 3-year period with the option to renew for an
Used Effectively         additional 2 years. However, we found that, for 16 grants for
                         fiscal years 1995 to 1998 that had been closed out, a total of
                         $949,019 had not been drawn down and used for the intended
                         law enforcement purposes. For example, as of March 2001,
                         $111,741 from a 1996 grant (No. 96-WF-NX-0078) had not been
                         used and $391,901 from a 1997 grant (No. 97-DB-MU-0078)
                         had not been used. Additionally, in a letter dated May 24, 2000,
                         the U.S. Department of Justice stated that unused balances on the
                         Byrne Formula Grant Program from fiscal years 1992 to 1996
                         totaled $1,382,500. Considering that nonprofit organizations
                         and other potential subgrantees needed funds to effectively carry
                         out programs related to law enforcement, the Commission
                         should have made greater efforts to use all available grant funds.


Required Progress and    The Law Enforcement Planning Commission’s Program
Financial Reports Were   Directors did not comply with all Federal grant reporting
Not Always Submitted     requirements. The Program Director for Juvenile Justice
                         Programs was required to submit annual performance reports by
                         June 31 of each year, but we found only one such report -- for
                         the period of January to December 1994. The Director of
                         Victims Witness Services was required to submit annual
                         performance reports within 45 days after the expiration of the
                         grant periods, but we found no such reports. The Director of


                                      18
                            Financial Management Services was required to submit quarterly
                            financial status reports within 45 days after the end of each
                            quarter. We reviewed 12 financial reports submitted by this
                            Director and found that they were prepared accurately, but were
                            submitted after the required due dates.

                            In a January 26, 2001 letter to the Drug Policy Advisor, the
                            Acting Assistant Attorney General of the United States stated
                            that she had concerns about the late submission or absence of
                            required grant reports, the inability to expend grant funds within
                            grant periods and extended grant periods, and the absence of
                            single audits. The Acting Assistant Attorney General also
                            expressed concern about the lack of adequate planning, control,
                            and management of Federal funds aggravated by the absence of
                            permanent management staff to oversee the programmatic and
                            financial administration of the grant funds.


Evaluation and Monitoring   The Law Enforcement Planning Commission’s December 1998
of Subgrantee Programs      State Annual Report for its Federally-funded programs stated
Was Not Performed           that funds had not been set aside for the evaluation of programs
                            administered by subgrantees, but that evaluations of some
                            programs would begin in 2000. Commission personnel also told
                            us that an outside contractor would be hired to perform grantee
                            program evaluations during 2001. However, as of June 2001,
                            none of the subgrantee programs had been evaluated to assess
                            their effectiveness.

                            The Commission also did not adequately monitor the compliance
                            of subgrantees with Federal program requirements. One of the
                            Commission’s Program Directors told us that time was not
                            available to make site visits to subgrantees and therefore
                            monitored the subgrantees through telephone calls. However,
                            none of these telephone monitoring calls were documented.
                            Additionally, although the Director of the Juvenile Justice
                            Program had prepared a detailed schedule for site visits to
                            subgrantees during fiscal year 2000, we found no documentation
                            to show that the scheduled site visits had ever been performed.

                            We also reviewed the files for a sample of 33 subgrantees to
                            determine whether they had complied with the subgrant
                            reporting requirements. We found that of 185 financial and
                            programmatic reports that should have been filed by the
                            33 subgrantees, 116 financial reports and 72 program progress


                                         19
                            reports were not submitted by the required deadlines. These
                            report were received by the Commission from 2 to 227 days after
                            the due dates. We also found that subgrantees did not submit
                            38 financial and 95 program progress reports. We further could
                            not determine the dates when 12 more financial reports and
                            7 program progress reports were submitted to the Commission.
                            Therefore, only 19 of 185 financial reports and 11 of 185
                            program progress reports were submitted by the due dates.


Potential Interest Income   Program regulations allowed the Law Enforcement Planning
of About $133,088 Was Not   Commission to draw down the entire amount of the annual Local
Maximized                   Law Enforcement Block Grant, which totaled $1.2 million in
                            fiscal year 1998 and $1.1 million in fiscal year 1999. The block
                            grant funds were to be deposited into an interest-bearing
                            statement savings account controlled by the Department of
                            Finance. The Commission was allowed to use interest earned on
                            the block grant funds deposited in the saving account and report
                            on its use on a quarterly basis. When funds were needed by the
                            Commission for program expenditures, the funds were to be
                            transferred by the Department of Finance from the savings
                            account to a checking account called the Federal Funds
                            Depository Account.

                            Our review disclosed that, although the 1998 block grant funds
                            were deposited to the savings account, the 1999 funds were not.
                            Additionally, when the final 1998 drawdown of $199,352 was
                            requested, the funds were paid from the Federal Depository
                            account without drawing from the savings account. As a result,
                            interest continued to accumulate and, as of May 8, 2001, unused
                            interest income of $83,388 had to be paid over to the U.S.
                            Department of the Justice. Additionally, potential interest
                            income of at least $49,700 was not earned because the fiscal year
                            1999 block grant was not deposited into the interest-bearing
                            savings account.


A Supervisory Board Had     The Virgin Islands Code (3 V.I.C. § 261(b)(1) and § 261(d)(1))
Not Been Appointed for      provides that the Governor shall appoint an advisory group for
the Commission              the Law Enforcement Planning Commission that will also serve
                            as a supervisory board responsible for programs under the
                            Federal Juvenile Justice and Delinquency Prevention Act of
                            1974. According to the Code (3 V.I.C. § 261(c)(1)), members of
                            the supervisory board are to serve 4-year terms. However, we


                                         20
                       found that the terms of appointment for 8 members of the
                       advisory group/supervisory board expired on March 31, 1996
                       and the terms of the remaining 10 members term expired on
                       December 7, 1997. No new members have since been appointed
                       to the advisory group/supervisory board, and its last meeting was
                       held on December 9, 1993. On February 6, 2001, the
                       Commission’s grant administrator wrote to the Governor
                       requesting that new members be appointed to the advisory
                       group/supervisory board.


Commission Employees   Although the Virgin Islands Code (3 V.I.C. § 261(d)(4) states
Did Not Have Career    that all employees of the Law Enforcement Planning
Status                 Commission, except the Administrator, should be career
                       employees, only 3 of the 10 employees held career status. Many
                       of the exempt employees were allowed to set their own salaries,
                       which were paid from Federal grant funds. Some of the exempt
                       employees did not have job descriptions and others were not
                       performing tasks based on existing job descriptions. We believe
                       that the lack of personnel management standards within the
                       Commission contributed to the internal control weaknesses
                       disclosed by our review.




                                    21
RECOMMENDATIONS
                  We recommend that the Governor of the Virgin Islands direct the
TO THE GOVERNOR   Commissioner of Police to:
OF THE VIRGIN
ISLANDS                 1. Establish and strictly enforce procedures for the control
                  of police firearms to include: the immediate conduct of a
                  complete physical inventory of police firearms, the subsequent
                  conduct of physical inventories of police firearms at least every
                  6 months, the establishment of complete and accurate property
                  control records for police firearms based on the physical
                  inventories, provisions for the physical security and control of
                  police firearms not assigned to specific Department personnel,
                  and procedures to hold Department personnel strictly
                  accountable for the security and disposition of firearms assigned
                  to them.

                        2. Enforce procedures contained in Section 5.9 of the
                  Police Manual that require Department personnel to return
                  firearms and other departmental property assigned to them upon
                  temporary or permanent separation from the Department.

                       3. Provide the Training Division with the staff and other
                  resources needed to implement and enforce the recommended
                  procedures for the control and disposal of police firearms.

                        4. Establish and strictly enforce procedures for the control
                  of evidentiary property held by the Department to include: the
                  immediate conduct of a complete physical inventory of
                  evidentiary property, the subsequent conduct of physical
                  inventories at least every 12 months, the establishment of
                  complete and accurate property control records for evidentiary
                  property based on the physical inventories, provisions for the
                  physical security and control of evidentiary property, and
                  provisions for the disposal of evidentiary property that is no
                  longer needed for criminal cases that have been closed.

                       5. Provide the staffing and other resources necessary for
                  the Department’s property clerks to implement and enforce the
                  recommended procedures for the control of evidentiary property.




                               22
     6. Request the cooperation of the Virgin Islands
Department of Justice by providing the Police Department with
quarterly reports on the disposition of cases involving
evidentiary property under the custody of the Police Department
so that the Police Department can be alerted as to when
evidentiary property related to closed cases can be disposed of.

       7. Expedite the completion of construction work at the
property room in the refurbished Richard Callwood Command
to facilitate the transfer of evidentiary property to the new
facility.

      8. Establish and strictly enforce procedures for the
transfer of evidentiary property between the Department’s
property rooms and the Forensics Unit, including procedures for
securing and controlling evidentiary property in the custody of
the Forensics Unit.

      9. Coordinate with the Virgin Islands Training Initiative
of the Division of Personnel to provide training in Federal grant
management to all personnel of the Police Department, including
the Narcotics Strike Force and the Law Enforcement Planning
Commission, who have duties related to Federal grants. This
training should include coverage of financial and programmatic
reporting requirements.

    10. Require that grant program managers in the Police
Department, including the Narcotics Strike Force and the Law
Enforcement Planning Commission, prepare and submit
financial and programmatic reports to the appropriate Federal
grantor agencies within the required reporting deadlines.

     11. Establish and strictly enforce policies and procedures
regarding the types of expenses that can be paid from the
Narcotics Strike Force’s confidential account, and take action to
recover amounts that may have been improperly charged against
the confidential account.

    12. Investigate the possibility of recovering, from the
police officer or his insurance company, the amount of the loss
incurred by the Narcotics Strike Force when a Federally-funded
vehicle was destroyed in a traffic accident involving an
intoxicated, off-duty police officer.



             23
    13. Require that Federal program directors of the Law
Enforcement Planning Commission perform and fully document
periodic on-site monitoring of all subgrantees to ensure that the
subgrantees are effectively carrying out Federally-funded
programs, properly accounting for Federal subgrants received,
and submitting complete and accurate financial and
programmatic reports within required deadlines.

     14. Take appropriate action to convert exempt employees
of the Law Enforcement Planning Commission to career status
and ensure that all employees have a complete and accurate job
description for their respective positions.

We also recommend that the Governor of the Virgin Islands
direct the Commissioner of Finance to:

    15. Take appropriate action to ensure that funds drawn
down against the Local Law Enforcement Block Grants are
deposited to interest-bearing savings accounts, as required by the
grant provisions, and used for allowable grant purposes.

    16. Provide the Commissioner of Police with an
accounting of the reasons for the reduction of $35,471 made
against the Narcotics Strike Force’s Forfeiture Fund.

    17 Prepare and process Statements of Remittances to
record in the Government’s financial management system all
drawdowns of Federal grant funds made by the Police
Department, including the Narcotics Strike Force and the Law
Enforcement Planning Commission.

We further recommend that the Governor of the Virgin Islands:

    18. Promptly appoint members to the advisory group/
supervisory board for the Law Enforcement Planning
Commission in accordance with the Virgin Islands Code
(3 V.I.C. § 261).




             24
                   The December 3, 2001 response (Appendix 4) to the draft report
AUDITEE RESPONSE   from the Governor of the Virgin Islands transmitted a detailed
                   response from the Commissioner of Police.                  The
                   Commissioner’s response expressed concurrence with all 18
                   recommendations and detailed the corrective actions that would
                   be taken. However, the response did not provide target dates for
                   completing the proposed corrective actions.


                   Based on the response, we consider Recommendation 10
OFFICE OF          resolved and implemented and requested additional information
INSPECTOR          for Recommendations 1 through 9 and 11 through 18 (see
GENERAL REPLY      Appendix 5).




                                25
APPENDIX 1 - MONETARY IMPACT


FINDING AREAS                                     Questioned Costs                      Funds To
                                              Unsupported       Cost      Unrealized    Be Put To
                                                 Costs       Exceptions   Revenues      Better Use

Federal Grant Management
   Grants Not Used Effectively                                                           $54,500*
   Drawdowns Not Supported                      $240,514*

Narcotics Strike Force
  Expenditures Questioned                                     $206,854
  Funds Not Accounted For                          35,471
  Vehicle Destroyed                                                        $22,000*

Law Enforcement Planning
Commission
  Grants Not Used Effectively                                                           2,331,519*
  Interest Not Maximized                                                    49,700*        83,388*

       Totals                                   $275,985      $206,854     $71,700     $2,469,407




__________
Amounts represent local funds unless otherwise indicated.
* These amounts represent Federal funds.




                                                       26
APPENDIX 2 - UNACCOUNTED FIREARMS

ST. THOMAS/                               Serial No.               Serial No.                Serial No.
ST. JOHN DISTRICT                       1. AVG230                14. MV130                 27. MV974
                                        2. AZG226                15. MV135                 28. MV980
                                        3. FU226                 16. MV168                 29. MV988
                                        4. KY414                 17. MV169                 30. TY279*
                                        5. ME252                 18. MV171                 31. TY400
                                        6. ME256                 19. MV179                 32. TY789
                                        7. ME257                 20. MV180                 33. TY792
                                        8. ME263                 21. MV192                 34. TY793
                                        9. ME267                 22. MV195                 35. TY962
                                       10. ME271                 23. MV941                 36. TY967
                                       11. ME296                 24. MV959                 37. TY975
                                       12. MV118                 25. MV964
                                       13. MV126                 26. MV967




ST. CROIX DISTRICT                        Serial No.               Serial No.                Serial No.
                                        1. AZG651                12. MV842*                23. NX701
                                        2. ME205                 13. MV863                 24. NX704
                                        3. ME214*                14. MV871*                25. NX705
                                        4. ME215*                15. MV916*                26. TY704*
                                        5. ME217* +              16. MV929*                27. TY711
                                        6. ME219                 17. MV932*                28. TY713*
                                        7. ME232*                18. MV938                 29. TY717
                                        8. ME236                 19. MV992                 30. TY721*
                                        9. ME240                 20. MV993*                31. TY724
                                       10. ME248                 21. NL191
                                       11. MV800*                22. NL192




__________
* These firearms were listed as unaccounted for in the 1994 audit report "Selected Property Management Functions,
Police Department, Government of the Virgin Islands" (No. 94-I-248).
+ Firearm no. ME217 was located by Police officials subsequent to the completion of our audit.




                                                       27
APPENDIX 3 - PRIOR AUDIT REPORTS
                              The January 1994 audit report "Selected Personnel Management
OFFICE OF INSPECTOR Functions, Police Department" (No. 94-I-239) stated that the
GENERAL REPORTS     Police Department did not ensure that all police officers attended
                              and satisfactorily completed the 80 hours of annual in-service
                              training and recertification in the use of firearms required by the
                              Police Manual. Additionally, the report stated that the
                              Department did not have standardized procedures for recording
                              police officer’s time and attendance and, as a result, time and
                              attendance for St. Croix police officers was not adequately
                              controlled.

                              The January 1994 audit report "Selected Property Management
                              Functions, Police Department" (No. 94-I-248) stated that the
                              Police Department did not adequately control firearms and
                              confiscated property. Four service firearms that were lost or
                              stolen from police officers were subsequently used in the
                              commission of crimes, and one of four service firearms loaned
                              to a private security guard company was later confiscated by
                              police officers from an unlicenced individual. Additionally,
                              because control over confiscated property was lax, hundreds of
                              items, including firearms, audiovisual equipment, cash,
                              narcotics, and other evidentiary material, were subject to loss or
                              theft. At least 2 of 34 firearms that were missing from the
                              Department’s Forensics Unit were later identified as having been
                              used in subsequent crimes. The report also stated that the
                              Department did not adequately maintain the Criminal Justice
                              Complex on St. Thomas. Therefore, the building was vacated,
                              resulting in Police Department employees being given
                              administrative time off at a cost to the Government of $263,000
                              and the Department having to rent alternate office space at an
                              annual rental cost of $142,000. Our current review found that
                              the Police Department did not implement or enforce procedures
                              for the control and security of firearms and evidentiary property
                              and, therefore, the related deficiencies disclosed by the prior
                              reports still existed.




                                           28
APPENDIX 4 - RESPONSE TO DRAFT REPORT




                   29
     APPENDIX 3
      Page 2 of 10




30
     APPENDIX 3
      Page 3 of 10




31
     APPENDIX 3
      Page 4 of 10




32
     APPENDIX 3
      Page 5 of 10




33
     APPENDIX 3
      Page 6 of 10




34
     APPENDIX 3
      Page 7 of 10




35
     APPENDIX 3
      Page 8 of 10




36
     APPENDIX 3
      Page 9 of 10




37
     APPENDIX 3
     Page 10 of 10




38
APPENDIX 5 - STATUS OF RECOMMENDATIONS

Finding/Recommendation
       Reference            Status                       Action Required

        1 to 9           Management     Provide the target dates for completing the
                         concurs;       proposed corrective actions for each of the
                         additional     recommendations. Additionally, when
                         information    corrective actions have been completed, provide
                         requested.     this office with appropriate documentation.

         10              Implemented.   No further action is required.

       11 to 18          Management     Provide the target dates for completing the
                         concurs;       proposed corrective actions for each of the
                         additional     recommendations. Additionally, when
                         information    corrective actions have been completed, provide
                         requested.     this office with appropriate documentation.




                                        39
Mission
The mission of the Office of Inspector General (OIG) is to
promote excellence in the programs, operations, and
management of the Department of the Interior (DOI). We
accomplish our mission in part by objectively and independently
assessing major issues and risks that directly impact, or could
impact, the DOI=s ability to carry out its programs and
operations and by timely advising the Secretary, bureau
officials, and the Congress of actions that should be taken to
correct any problems or deficiencies. In that respect, the value
of our services is linked to identifying and focusing on the most
important issues facing DOI.


How to Report Fraud, Waste, and Abuse
Fraud, waste, and abuse in Government are the concern of
everyone B Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related
to Departmental or insular area programs and operations. You
can report allegations to us by:

Mail:         U.S. Department of the Interior
              Office of Inspector General
              Mail Stop 5341-MIB
              1849 C Street, NW
              Washington, DC 20240

Phone:        24-Hour Toll Free             800-424-5081

              Washington Metro Area         202-208-5300
              Hearing Impaired              202-208-2420
              Fax                           202-208-6023

              Caribbean Region              703-487-8058
              Northern Pacific Region       671-647-6060

Internet:     www.oig.doi.gov/hotline_form.html
